No.A

In the 6upreme Court of the i1inttcb 6tattg
ALEXANDER CHRISTIAN MILES,

Applicant,
LIVA
UNITED STATES OF AMERICA

Respondent
PROOF OF SERVICE
The Petitioner and Applicant, Dr. Alexander C. Miles, hereby attests that a copy of
the instant APPLICATION TO EXTEND TIME TO FILE A PETITION FOR WRIT OF
CERTIORARI on this date, to wit May 22, 2019, pursuant to Supreme Court Rule 29,
was served on The Honorable Solicitor General of the United States, Noel Francisco,
Esq., Office of the Solicitor General, 950 Pennsylvania Ave., NW, Washington, DC
20530-0001, by United States Mail, first-class postage prepaid.
The Petitioner and Applicant declares under penalty of perjury that the foregoing
is true and correct.
Executed on May 22, 2019

ALEXANDER C. MILES

pro se
C/O LAW OFFICES OF DON P. CHAIREZ

P.O. Box 1954
Pahrump. NV 89041
Telephone: (702) 281-0681
Facsimile: (702) 926-9700
acmilesesci@gmail.com
5

